                             CLOSEOUT MEMORANDUM
                                   A01060023

We received an allegation that the subjects' stole novel ideas as conta'ined in certain
patents2 and publications of a researcher by incorporating them into a proposal
submitted to N S F ~without appropriate attribution. Further, the allegation states that a
preliminary review of the matter by Subjects' institutionSwas too narrowly drawn in that
it focused on patent infringement rather than intellectual theft and that it was biased in
favor of Subjects.

We reviewed all documents in support of the allegations. We determined that in order to
evaluate the allegations, we needed to consult an expert6regarding the underlying
science. We provided the expert with relevant documents to enable him to ascertain the
degree of overlap, if any, between the science described in the NSF proposal and the
science described in the researcher's patents and publications. The expert concluded that
significant differences exist between the researcher's and Subjects' work and that citing
the researcher in the NSF proposal, while helpful for background,,was not strictly
necessary.

As a result of our review and the expert's conclusions, we have determined that the .
evidence does not support the allegations of intellectual theft. Further, we have
determined that the alleged flaws, if any, in the institution's review of the allegations are
best addressed on a systemic basis during a future outreach presentation by this office.

This inquiry is closed and no further action will be taken.


cc: Investigations, IG
